■l

i

a
i

APPENDIX A
:
s
i

r

i

f

:

1

I

Q

Neutral
As of: April 24, 2021 10:23 PM Z

United States v. Harris
United States Court of Appeals for the Fourth Circuit
December 8, 2020, Argued; March 18, 2021, Decided
No. 19-7145
Reporter
2021 U.S. App. LEXIS 7964 *; 991 F.3d 552
UNITED STATES OF AMERICA, Plaintiff Appellee, v. DANIEL CHASE HARRIS,
Defendant - Appellant.

Prior History: [*1] Appeal from the United States
District Court for the Eastern District of Virginia, at
Norfolk. (2:14-cr-00076-MS D-DEM-1; 2:18-cv00140-MSD). Mark S. Davis, Chief District Judge.

United States v. Hams. 2014 U.S. Dist. LEXIS
156465 (E.D. Va., Aug. 15,2014)

involved a permissible domestic application of £
2422(b), and that was so even though other conduct
occurred abroad.

Outcome
Judgment affirmed.

Counsel: ARGUED: Steven William Becker, LAW
OFFICE OF STEVEN W. BECKER LLC,
Chicago, Illinois, for Appellant.

Disposition: AFFIRMED.

Daniel Taylor Young, OFFICE OF THE UNITED
STATES ATTORNEY, Alexandria, Virginia, for
Appellee.

Case Summary

ON BRIEF: G. Zachary Terwilliger, United States
Attorney, Alexandria, Virginia, Elizabeth M. Yusi,
Assistant United States Attorney, OFFICE OF THE
UNITED STATES ATTORNEY, Norfolk,
Virginia, for Appellee.

Overview
HOLDINGS: [1]-The district court properly denied
defendant's $ 2255 petition challenging his
conviction for coercing a minor into illegal sexual
activity under 18 U.S.C.S. § 2422(b) because his
conviction did not constitute an impermissible
extraterritorial application of that statutory
provision as the conduct relevant to the statute's
focus occurred in the United States, so the case

Judges: Before DIAZ, THACKER, and HARRIS,
Circuit Judges.

Page 2 of 8
2021 U.S. App. LEXIS 7964, *1

Opinion by: PAMELA HARRIS

Opinion

Because it is necessary to understand the key
charge against Harris and Harris's arguments before
the district court, we begin with a brief review of
the statute at issue, 18 U.S.C. $ 2422(b), and the
complicated statutory regime that has grown up
around it. We turn then to the facts of this [*3]
case and the proceedings before the district court.

PAMELA HARRIS, Circuit Judge:
Daniel Chase Harris was stationed in Japan with the ^
United States Navy when he used the internet to
begin a lengthy and coercive sexual relationship Harris challenges his conviction under 18 U.S.C. S
with a young girl in Virginia. Harris continued to 2422(b). which imposes a minimum ten-year
target this victim for almost two years, not only sentence on "[wjhoever, using the mail or any
from Japan but also from Guam and within the facility or means of interstate or foreign commerce,
continental United States, as he transferred duty or within the special maritime and territorial
stations and traveled on leave.
jurisdiction of the United States knowingly
persuades, induces, entices, or coerces any
As a result of that abusive relationship, a jury individual who has not attained the age of 18 years,
convicted Harris of coercing a minor into illegal to engage in . . . any sexual activity for which any
sexual activity in violation of 18 U.S.C. § 2422(b). person can be charged with a criminal offense." J_8
The jury also convicted [*2] Harris of multiple U.S.C. S 2422(b) (emphasis added). One of the
counts related to the sexual abuse of several other questions raised in this appeal is whether the
child victims. After this court affirmed his italicized text - applying $ 2422(b) to persons
convictions and sentence on appeal, Harris filed a § within the "special maritime and territorial
2255 petition challenging his § 2422(b) conviction, jurisdiction of the United States" - authorizes
which the district court denied.
extraterritorial application of the statute.
In this appeal, Harris argues that his conviction
unt^er ^—Mj.2i.bj constituted an impermissible
extraterritorial application of that statutory
provision. It is true that Congress's statutes may be
applied extraterritorially only when their text makes
clear that such application is intended. But we need
not decide here whether $ 2422(b)'s text meets that
standard, because Harris's conviction involved a
permissible domestic application of $ 2422(b):
Harris s Virginia victim received his messages and
was coerced into sexual activity in the United
States, and Harris himself was in the United States
when he sent some of those messages. For that
reason, we affirm the district court's denial of
Harris's § 2255 petition.

I.

The "special maritime and territorial jurisdiction of
the United States" is defined in a separate statutory
provision, 18 U.S.C. $ 7(3). to include "[a]ny lands
reserved or acquired for the use of the United
states, and under the exclusive or concurrent
jurisdiction thereof." In United States v. Erdos. 474
F.2d 157 (4th Cir. 1973). we held that this
definition extends to overseas United States
facilities - there, a United States embassy in
Equatorial Guinea. It followed, we concluded, that
a federal [*4] manslaughter statute covering
killings committed "within the special maritime and
territorial jurisdiction of the United States" - the
same language used in $ 2422(b) - could be applied
extraterritorially, to prosecute a killing at the
embassy. Id. at 158-60 & 158 n.l (quoting 18
U.S.C. § 1112(b)). Under Erdos, it would seem that
$ 2422(b)'s reference to the same "special maritime

Page 3 of 8
2021 U.S. App. LEXIS 7964, *4

and territorial jurisdiction," incorporating the same
definition in $ 7(3). would authorize extraterritorial
application of that statute, as well.

at the time of his offenses, Harris was serving in the
United States Navy. The conduct for which he was
indicted occurred at military facilities in Japan and
Guam; at a naval station in Key West, Florida; and
But there is a potential complication, because after at other locations in the United States, including
our decision in Erdos, Congress amended 1_7, multiple locations within Virginia. The minor
adding to the definition of special maritime and victim relevant to this appeal, known as H.K., was
territorial jurisdiction a provision that expressly in Virginia for the duration of Harris's crimes,
addresses the status of "United States diplomatic,
consular, [or] military . . . missions or entities in After a 13-day trial, during which the district court
foreign States," 18 U.S.C. $ 7(9). like the United dismissed one count of the indictment on the
States Navy bases at which Harris was posted, government's motion, a jury [*6] convicted Harris
Under the new provision, those overseas entities do of the remaining 31 charges against him. The
fall within the definition, but - due to a series of district court sentenced Harris to a total of 50 years’
amendments and carveouts - not with respect to imprisonment and a life term of supervised release,
"members] of the Armed Forces subject to . . . the Our court affirmed his convictions and sentence on
Uniform Code of Military Justice," id.; 18 U.S.C. $ appeal, United States v. Harris, 653 F. App'x 203
3261(a), unless they fall within certain exceptions (4th Cir. 2016) (per curiam), and the Supreme
Court denied certiorari, Harris v. United States, 137
not relevant here, id. at $ 3261(a), (d).
S. Ct. 1355, 197 L. Ed. 2d 538 (2017).
So the question Harris raises is [*5] whether a
prosecution under $ 2422(b) for conduct committed ^arr*s then filed the 28.U.S.C. .§ 2255 petition that
at a military facility abroad still may be predicated 15
su^Ject of this appeal. In his petition, Harris
§
7(3)'s
general
definition
of
"special
maritime
primarily
challenged his conviction under £
on
and territorial jurisdiction" as construed by Erdos - 2422(b) for coercing H.K. to engage in sexual
or whether it now must proceed under § 7(9)'s more activity, as charged in Count 14 of the indictment,
specific definition, in which case Harris, as a That count specified that Harris's conduct began
member of the armed forces subject to the Uniform abroad, at a military facility in Japan which it
Code of Military Justice, would be excluded from described as in the Special Maritime and
Territorial Jurisdiction of the United States,"
its reach.
tracking the language of $ 2422(b). J.A. 44. Harris's
conduct continued, Count 14 alleged, "in the
Eastern District of Virginia, and elsewhere," and
B.
violated $ 2422(b) "and [§] 7" - the provision that
In 2014, Harris was indicted in the Eastern District defines the "special maritime and territorial
of Virginia on 32 charges related to his use of the jurisdiction of the United States" as used in §
internet to coerce numerous minors into engaging 2422(b) Id2
in sexually explicit conduct and transmitting visual
depictions of that conduct to him.1 At that time, and
official proceeding in violation of 18 U.S.C. $ 1512(c)(2): and
witness tampering in violation of 18 U.S.C. $ 1512(c)(2).
2 In full, Count 14 charged that:
1 Specifically, Harris was charged with coercing minors into
producing child pornography in violation of 18 U.S.C. $ 2251(a). (e);
coercing minors into engaging in sexual activity that could be
charged as a criminal offense (namely, production of child
pornography under Virginia law) in violation of 18 U.S.C. S
2422(b): receipt, transportation, and possession of child pornography
in violation of 18 U.S.C. ^ 2252(a) and 2256(1): obstructing an

From on or about March 19, 2011, to on or about October 8,
2011, beginning at Naval Air Facility Atsugi (Japan) in the
Special Maritime and Territorial Jurisdiction of the United
States, and continuing in the Eastern District [*7] of Virginia,
and elsewhere, the defendant DANIEL CHASE HARRIS, used
a facility and means of interstate and foreign commerce to

Page 4 of 8
2021 U.S. App. LEXIS 7964, ‘7

H.K., the victim identified in Count 14, testified at
trial. At the time of the relevant events, she was 13
or 14 years old and living in Virginia. She
described meeting a man on Facebook, and the
ways in which he coerced her into performing
sexual acts on video chats with him and sending
him sexually explicit images. In particular, the man
threatened to publish explicit images of her on the
internet or send them to her school if she did not
accede to his continued demands. Other evidence
introduced by the government showed that it was
Harris, using an assumed name, who sent H.K. the
coercive messages she described. The evidence also
showed that Harris began targeting H.K. while he
was stationed in Japan, and then continued to
contact [*8] her from Guam and while he was in
several U.S. states, including Virginia.

two unrelated issues,
The district court rejected Harris’s challenge to the
application of § 2422(b) in Count 14. After
carefully reviewing Harris's statutory argument,
the [*9] court concluded that it was unclear
whether the passage of $ 7(9). with its specific
reference to overseas military facilities, had
effectively supplanted the definition at $ 7(3) - and
called into question our decision in Erdos - in cases
involving crimes committed by military personnel
on military bases abroad. But, the court held, it was
unnecessary to answer that question: Whatever the
precise scope of $ 2422(b)'s extraterritorial reach, it
could be used in this case to prosecute Harris
because Count 14 charged Harris with domestic
criminal conduct. Harris's coercive messages were
received and had their intended effect in Virginia,
where H.K. resided and engaged in the unlawful
sexual activity into which Harris coerced her.
Moreover,
the
court
continued,
Harris
"electronically reached into the victim’s bedroom"
not only from Japan but also from within the
United States, sending some of his messages to
H.K. while "physically located in Virginia Beach,
Virginia," as well as other states. J.A. 687
(emphasis omitted). Even assuming, then, the
merits of Harris’s statutory argument, it had no
effect on the viability of Count 14. The district
court also rejected Harris's ineffective assistance
claims, and [* 10] thus denied his petition,

In his $ 2255 petition, Harris, framing his challenge
in jurisdictional terms, argued that he could not be
convicted under Count 14 because that count
charged conduct that occurred while he was
stationed overseas with the military. Harris
acknowledged that $ 2422(b) applies to all persons
"within the special maritime and territorial
jurisdiction of the United States," as defined by 18
U.S.C. $ 7. But, he argued, the relevant definition is
now the one codified at § 7(9), which specifically
includes overseas military facilities but excludes
active-duty service members subject to the Uniform
Code of Military Justice, like Harris. It followed,
according to Harris, that the district court "lacked
jurisdiction to enter [a] judgment against and to This timely appeal followed. We granted a
impose [a] sentence upon [him] on Count certificate of appealability to decide whether the
Fourteen." J.A. 610. Harris also argued that his trial district court erred in rejecting Harris's claim that it
counsel was ineffective for failing to raise this lacked jurisdiction to support Harris's conviction
claim in his initial proceeding, and that his under §_2422(b), as alleged in Count 14 of the
appellate counsel was ineffective for failing to raise indictment, and denied a certificate of appealability
as to any other issues.3
attempt to and did knowingly persuade, induce, entice, and
coerce H.K.., who had not attained the age of 18 years, to
engage in a sexual activity for which a person can be charged
with a criminal offense under Virginia law, namely, Production
of Child Pornography, in violation of $ 18.2-374.1 of the
Virginia code. (In violation of Title 18. United States Code.
Sections 2422(b) and 7).
J.A. 44.

3 We note that Harris's direct challenge to his conviction - and the
only issue before us on appeal - involves just one count of a 31-count
conviction, with no obvious effect on Harris's total sentence. Harris
argues, however, that the evidence introduced by the government to
prove the allegations in Count 14 was so damning that it also may
have influenced his convictions on the other counts, so that a vacatur
of his conviction on Count 14 would call into question the remaining

Page 5 of 8

2021 U.S. App. LEXIS 7964, *10

committed by military personnel overseas. That is a
II.
claim about the extraterritorial reach of § 2422(b).
and as the Supreme Court has explained, that is a
merits question, not a question of jurisdiction. See
Morrison v. Not'l Austl. Bank Ltd.. 561 U.S. 247.
A.
254. 130 S. Ct. 2869, 177 L. Ed. 2d 535 (2010)
("[T]o ask what conduct $ 10(b) reaches is to ask
We begin with some preliminary issues regarding
what conduct $ 30(b) prohibits, which is a merits
the nature of Harris's claim and our standard of
question."). Whether or not $ 2422(b) applies to
review. The crux of Harris's argument on appeal is
Harris's conduct, in other words, the district court
that § 2422(h) and $ 7(9) do not allow for the had jurisdiction to adjudicate that issue. See id.
prosecution of active-duty service members for
crimes committed on military bases abroad. Because Harris is asserting a merits claim, our
Throughout, Harris has framed this argument in review of the district court's denial of Harris's
jurisdictional terms, contending that the trial court petition is subject [*12] to normal rules of
lacked personal jurisdiction over him with respect forfeiture and waiver. That matters in this case,
to Count 14, and the district court followed suit. because it is undisputed that Harris failed to raise
But what is at issue here is not, in fact, a matter of his claim regarding the reach of $ 2422(b) during
jurisdiction, at least in the formal - rather than his initial criminal proceeding or on direct appeal,
colloquial - sense of the word. Cf. Steel Co. v, rendering it procedurally defaulted for purposes of
Citizens for a Better Env't. 523 U.S. 83, 90. 118 S. this $ 2255 proceeding. See United States v. Fusit.
Ct. 1003. 140 L. Ed. 2d 210 (1998) ("Jurisdiction . . 703 F.3d 248. 253 (4th Cir. 2012). As a result, we
. is a word of many, too many, meanings." (internal ordinarily could review it only under the cause-andquotation marks omitted)).
prejudice standard for defaulted claims. See id.
Personal jurisdiction over a criminal defendant is
established by the presenceof the defendant before
the court. See United States v. Perez. 752 F.3d 398,
407 (4th Cir. 2014) ("Personal jurisdiction [* 11] in
a criminal case is still based on physical presence . .
. ."); United States v. White. 480 F. App’x 193. 194
(4th Cir. 2012) (per curiam) ("Physical presence in
the United States usually supplies the only
necessary prerequisite for personal jurisdiction in a
federal criminal prosecution."). Harris was
physically present before the district court for his
criminal trial, and that was enough to give the court
personal jurisdiction over him with respect to all
counts of the indictment.
Harris does not contest his presence before the trial
court. Instead, he argues that $ 2422(b).
notwithstanding its reference to the "special
maritime and territorial jurisdiction of the United
States," does not extend to criminal conduct
convictions, as well.

But there is yet another forfeiture in this case,
because the government, as it concedes, failed to
raise procedural default as a defense to Harris's §
2255 petition in the district court. As we have
explained, "[procedural default must be pled as an
affirmative defense" or else the government will
"lose the right to assert the defense thereafter."
Royal v. Taylor, 188 F.3d 239. 247 (4th Cir. 1999)
(internal quotation marks omitted). The government
acknowledges this, but suggests that maybe it could
"assert the defense" just a little: Perhaps, it says, we
could review Harris's claim for plain error, a form
of review more generous than cause-and-prejudice
but still significantly stricter than our ordinary de
novo review. We decline this invitation. Plain-error
review is not a consolation prize for the
government when it fails to raise a[*13]
procedural-default defense. It is formulated
specifically for appeals in which a defendant
challenges a conviction on grounds not first raised
in the district court, see, e.g., United States v.

Page 6 of 8
2021 U.S. App. LEXIS 7964, *13

Walker. 934 F.3d 375. 377-78 (4th Cir. 2019). and
has no sensible application in a case like this, in
which Harris did raise his $ 2422(b) claim before
the district court deciding his £ 2255 petition.
Because the government forfeited its proceduraldefault defense, we proceed under our ordinary
standard of review. See United States v. Metises. 3
F.3d 756. 757-58 (4th Cir. 1993). We thus review
de novo the legal conclusions on which the district
court rested in denying Harris's § 2255 petition. See
United States v. Morris. 91.7 F.3d 818, 822 (4th Cir.
2019).

B.
Harris's argument, at its core, is that his conviction
on Count 14 - which alleged at least some conduct
occurring at a military base abroad - constituted an
impermissible extraterritorial application of £
2422(b). And indeed, ”[i]t is a longstanding
principle of American law that legislation of
Congress, unless a contrary intent appears, is meant
to apply only within the territorial jurisdiction of
the United States." Morrison. 561 U.S. at 255
(internal quotation marks omitted). Courts thus
"presume that federal statutes apply" only
domestically, "within the territorial jurisdiction of
the United States." WesternGeco LLC v, ION
Geophysical Carp.. 138 S. Ct. 2129, 2136. 201 L.
Ed. 2d 584 (2018) (internal quotation marks
omitted). The Fourth Circuit has recognized [*14]
that this presumption - known as the presumption
against extraterritoriality
extends to federal
criminal statutes, like $ 2422(b). See United States
v. Avesh. 702 F.3d 162. 166 (4th Cir. 2012).
The Supreme Court has established a two-part
framework
for
deciding
questions
of
extraterritoriality. See WesternGeco. 138 S. Ct. at
2136. The first step asks whether the text of the
relevant statute "provides a clear indication of an
extraterritorial application," sufficient to rebut the
presumption against extraterritoriality. Id. (internal
quotation marks omitted). If it does not, and the

presumption remains in force, then the second step
"asks whether the case involves a domestic
application of the statute" - that is, "whether the
conduct relevant to [the statute's] focus occurred in
United States territory." Id. (internal quotation
marks omitted). If it did, then application of the
statute is permissible. Id.
Ordinarily, courts should proceed in sequence,
addressing step one first and step two only where
necessary. RJR Nabisco. Inc, i-1. European Cm tv..
136 S. Ct. 2090, 2101 n.5. 195 L, Ed. 2d 476
(2016). But we also have discretion to begin at step
two in "appropriate cases," idincluding cases in
which the step-one inquiry involves "difficult
questions" that would not change the outcome but
might have "far-reaching effects" in the future,
WesternGeco. .138 S. Ct. at 2136 (internal quotation
marks [*15] omitted). We think this is just such a
case. Beginning with the step-one inquiry - whether
$ 2422(bVs reference to the "special maritime and
territorial jurisdiction of the United States," as
defined by the various subsections of
plainly
enough contemplates extraterritorial application in
these circumstances that it rebuts the presumption
against extraterritoriality - would require us to
parse an exceedingly complex statutory regime, and
to consider whether our longstanding precedent in
Erdos has been undermined or abrogated by
subsequent amendments. As the district court
concluded, those are difficult issues, and they
would have implications that stretch well beyond
this case. At the same time, their resolution would
not make a difference for this case because, as we
explain below, Harris's conviction on Count 14
involved only a domestic application of $ 2422(b).
We therefore begin - and end - with step two of the
analysis.
Key to the second step is identifying $ 2422(b)'s
"focus." Id at 2137. For purposes of the
extraterritoriality analysis, a statute's "focus" is "the
object of its solicitude," including the conduct it
seeks to regulate and the parties and interests it
seeks to protect. Id. (internal quotation marks [*16]
and alterations omitted). If the conduct relevant to

Page 7 of 8
2021 U.S. App. LEXIS 7964, *16

the statute's focus occurred within the United
States, then the case "involves a permissible
domestic application" of the statute. Id. (internal
quotation marks omitted). And, critically, that is
true even if additional and related conduct occurred
abroad. Id.
Here, the conduct charged in Count 14 that is
relevant to § 2422(bVs focus occurred in the United
States, not overseas. Section 2422(bVs focus is
clear: The "object[s]" of $ 2422fb)'s "solicitude" the "parties ... it seeks to protect," id. (internal
quotation marks and alterations omitted) - are
children like H.K., the victim in this case. "The
primary evil Congress meant to avert by enacting £
2422fb3 was the psychological sexualization of
children . . . ." Fusil, 703 F.3d at 255; see also
United States i;. Ensle. 676 F.3d 405. 419 (4th Cir.
20123 (recognizing that $ 2422(b) "was designed to
protect children from the act of solicitation"
(internal quotation marks omitted)). Accordingly,
what $ 2422(b) criminalizes is "an intentional
attempt to achieve a mental state - a minor's assent"
- in its young victims. Fusit, 703 F.3d at 255
(internal quotation marks omitted). And the
conduct $ 2422(b) "seeks to regulate,"
WesternGeco. 138 S. Ct. at 2137 (internal quotation
marks omitted) - or rather, prevent - is coerced
sexual activity by children, see 18 U.S.C. $ 2422(b)
(criminalizing coercion [* 17] of a minor "to
engage in prostitution or any sexual activity for
which any person can be charged with a criminal
offense").
It is equally clear that the conduct relevant to this
statutory focus occurred, in this case, in the United
States. What matters, given § 2422(b)'s focus, is the
location of a child victim when she is targeted by
an offender; that is the site at which her "assent" is
coerced, see Fusit. 703 F.3d at 255. and at which
she engages in the sexual activity that $ 2422(b)
seeks to prevent. Had H.K., like Harris, been in
Japan when she was targeted by him, then we
would have a different case. But H.K. was in
Virginia when she received Harris's messages and
was coerced into engaging in sexual activity, which

means that the "conduct relevant to f$ 2422(bVs1
focus occurred in the United States." WesternGeco.
138 S. Ct. at 2137 (internal quotation marks
omitted); see J.A. at 689-90 (describing Harris's
conduct as "victimiz[ing] a minor through
affirmatively reaching into the territorial United
States").
The Second Circuit reached a similar conclusion in
United States v. Gasoerini, 729 F. App’x 112 (2d
Cir. 2018) (summary order). There, the defendant
was convicted under 18 U.S.C. $ 103Q(,a)f2~). a
provision of the Computer Fraud and Abuse Act of
1986, of accessing, without authorization, several
computers in the United States. Id. at 114.
Because [* 18] he himself was not in the United
States, and instead accessed the computers from
overseas, the defendant argued, his conviction
constituted an impermissible extraterritorial
application of $ 1030f'a)(,2). Id4 The court
disagreed, holding that his conviction involved only
a domestic application of the statute: "[B]ecause the
focus of the statute is gaining access to computers
and obtaining information from them," the relevant
conduct occurred in the United States, where the
computers were located, and not abroad, where the
defendant was located. Id So too here: Because £
2422(bVs focus is on the coercion of children into
sexual activity, the conduct relevant to the
extraterritoriality analysis occurred in Virginia,
where Harris's victim received his messages and
was compelled to assent to his demands for sexual
activity.
That conclusion is only bolstered, as the district
court emphasized, see J.A. 687, 690, by the fact
that Harris himself also was present in the United
States - indeed, right in Virginia - when he sent at
least some of his messages to H.K. In United States
v. Sitzmamu 893 F.3d 811. 436 U.S. App. D.C. 310
(D.C. Cir. 2018) (per curiam), for instance, the

4 A companion opinion issued alongside the Second Circuit’s order
describes the defendant as an Italian citizen arrested in the
Netherlands. See United States v. Gasoerini. 894 F.3d 482. 486 (2d
Cir. 2018).

Page 8 of 8
2021 U.S. App. LEXIS 7964, *18

defendant was convicted under 21 U.S.C. § 841(a)
and $ 846 of conspiring to traffic large quantities of
cocaine from Mexico and Colombia [* 19] to the
United States, Canada, Europe, and elsewhere.
Because much of his alleged conduct occurred
outside the United States and was directed toward
drug smuggling in other countries, the defendant
argued, his conviction could be sustained only if
the relevant statutes applied extraterritorially. Id. at
821-22. Again, the court disagreed; the defendant's
conviction, it held, was a domestic application of
the statutes, in part because the defendant had been
physically present in the United States when he
engaged in at least some of his actions in support of
the conspiracy. Id. at 822.
The same is true here, where Harris "engaged in
[some] activity in the United States," id., in
connection with his § 2422(b) conviction. It is of
course true that not all of the conduct charged in
Count 14 occurred in the United States; that count
expressly identifies Japan as the country from
which Harris first contacted H.K. But for purposes
of the extraterritoriality framework's second step,
that makes no difference. Because the conduct
"relevant to the statute's focus" occurred in the
United States, this case involves a permissible
domestic application of $ 2422(b) - and that is so
"even if other conduct occurred abroad."
WesternGeco, 138 S. Ct. at 2.137 (internal
quotation [*20] marks omitted); see also Sitzmamu
893 F.3d at 822.

III.
For the reasons given above, the judgment of the
district court is affirmed.
AFFIRMED
F_nd oT Document

I

APPENDIX B

I
i

/

;

i

f

l

FILED: May 14, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7145
(2:14-cr-00076-MSD-DEM-l)
(2:18-cv-00140-MSD)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
DANIEL CHASE HARRIS
Defendant - Appellant

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Diaz, Judge Thacker, and Judge
Harris.
For the Court
/s/ Patricia S. Connor. Clerk

